<html>
<title> - [H.A.S.C. No. 110-38]</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]



 
                     [H.A.S.C. No. 110-38]
---------------------------------------------------------------------- 

                                HEARING

                                   ON

                   NATIONAL DEFENSE AUTHORIZATION ACT

                          FOR FISCAL YEAR 2008

                                  AND

              OVERSIGHT OF PREVIOUSLY AUTHORIZED PROGRAMS

                               BEFORE THE

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION

                               __________

                     READINESS SUBCOMMITTEE HEARING

                                   ON

    BUDGET REQUESTS FOR MILITARY CONSTRUCTION, FAMILY HOUSING, BASE 
          CLOSURES AND FACILITIES' OPERATIONS AND MAINTENANCE

                               __________

                              HEARING HELD

                             MARCH 20, 2007

                                     
[GRAPHIC] [TIFF OMITTED] TONGRESS.#13




                     U.S. GOVERNMENT PRINTING OFFICE

40-999 PDF                 WASHINGTON DC:  2008
---------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing
Office  Internet: bookstore.gpo.gov Phone: toll free (866)512-1800
DC area (202)512-1800  Fax: (202) 512-2250 Mail Stop SSOP, 
Washington, DC 20402-0001


                         READINESS SUBCOMMITTEE

                   SOLOMON P. ORTIZ, Texas, Chairman
GENE TAYLOR, Mississippi             JO ANN DAVIS, Virginia
SILVESTRE REYES, Texas               WALTER B. JONES, North Carolina
LORETTA SANCHEZ, California          J. RANDY FORBES, Virginia
ROBERT A. BRADY, Pennsylvania        MIKE ROGERS, Alabama
JIM MARSHALL, Georgia                JOHN M. McHUGH, New York
MADELEINE Z. BORDALLO, Guam          HOWARD P. ``BUCK'' McKEON, 
MARK UDALL, Colorado                     California
DAN BOREN, Oklahoma                  ROBIN HAYES, North Carolina
NANCY BOYDA, Kansas                  FRANK A. LoBIONDO, New Jersey
CAROL SHEA-PORTER, New Hampshire     TOM COLE, Oklahoma
JOE COURTNEY, Connecticut            ROB BISHOP, Utah
DAVID LOEBSACK, Iowa                 CANDICE S. MILLER, Michigan
GABRIELLE GIFFORDS, Arizona          TRENT FRANKS, Arizona
KATHY CASTOR, Florida                CATHY McMORRIS RODGERS, Washington
                Dave Sienicki, Professional Staff Member
                 Tom Hawley, Professional Staff Member
                   Christine Roushdy, Staff Assistant


                            C O N T E N T S

                              ----------                              

                     CHRONOLOGICAL LIST OF HEARINGS
                                  2007

                                                                   Page

Hearing:

Tuesday, March 20, 2007, Fiscal Year 2008 National Defense 
  Authorization Act--Budget Requests for Military Construction, 
  Family Housing, Base Closures and Facilities' Operations and 
  Maintenance....................................................     1

Appendix:

Tuesday, March 20, 2007..........................................    31
                              ----------                              

                        TUESDAY, MARCH 20, 2007
 FISCAL YEAR 2008 NATIONAL DEFENSE AUTHORIZATION ACT--BUDGET REQUESTS 
     FOR MILITARY CONSTRUCTION, FAMILY HOUSING, BASE CLOSURES AND 
                 FACILITIES' OPERATIONS AND MAINTENANCE
              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

Jones, Hon. Walter B., a Representative from North Carolina, 
  Readiness Subcommittee.........................................     2
Ortiz, Hon. Solomon P., a Representative from Texas, Chairman, 
  Readiness Subcommittee.........................................     1

                               WITNESSES

Anderson, Hon. William C., Assistant Secretary of the Air Force 
  (Installations, Environment and Logistics).....................     7
Eastin, Hon. Keith E., Assistant Secretary of the Army 
  (Installations and Environment)................................     4
Grone, Hon. Philip W., Deputy Under Secretary of Defense 
  (Installations and Environment)................................     3
Penn, Hon. B.J., Assistant Secretary of the Navy (Installations 
  and Environment)...............................................     6

                                APPENDIX

Prepared Statements:

    Anderson, Hon. William C.....................................   108
    Eastin, Hon. Keith E.........................................    60
    Grone, Hon. Philip W.........................................    35
    Penn, Hon. B.J...............................................    86

Documents Submitted for the Record:

    Letters to Hon. Ike Skelton, Hon. Carl Levin, Hon. Robert C. 
      Byrd, Hon. David R. Obey, Hon. Tim Johnson, Hon. Chet 
      Edwards, Reference the Base Realignment and Closure (BRAC) 
      2005 Recommendation #5.....................................   135
    Report to Congress on the Base Realignment and Closure 2005, 
      Fort Monmouth, New Jersey, Recommendation #5...............   147

Questions and Answers Submitted for the Record:

    Mr. Saxton...................................................   173
 FISCAL YEAR 2008 NATIONAL DEFENSE AUTHORIZATION ACT--BUDGET REQUESTS 
     FOR MILITARY CONSTRUCTION, FAMILY HOUSING, BASE CLOSURES AND 
                 FACILITIES' OPERATIONS AND MAINTENANCE

                              ----------                              

                  House of Representatives,
                       Committee on Armed Services,
                                    Readiness Subcommittee,
                           Washington, DC, Tuesday, March 20, 2007.
    The subcommittee met, pursuant to call, at 1:05 p.m., in 
room 2118, Rayburn House Office Building, Hon. Solomon Ortiz 
(chairman of the subcommittee) presiding.

 OPENING STATEMENT OF HON. SOLOMON P. ORTIZ, A REPRESENTATIVE 
          FROM TEXAS, CHAIRMAN, READINESS SUBCOMMITTEE

    Mr. Ortiz. This hearing will come to order.
    I thank our distinguished witnesses for appearing before 
this subcommittee today.
    Today the Readiness Subcommittee will hear about Base 
Realignment and Closure (BRAC) and military construction 
(MILCON) programs.
    While I am glad to see the Department of Defense (DOD) 
committing the largest amount of money to new construction in 
recent history, several serious issues still confront this 
committee, some of our own making and some because of the lack 
of attention from DOD.
    Whether you support the President in Iraq or not, we can 
all agree that we are in for a long war against a very 
determined enemy. In this long war, our troops deserve the best 
that our great nation can offer, and we will support this 
effort.
    There is an old saying, ``The first time you sign up a 
soldier or sailor, you sign up one person. The next time you 
sign them up, you sign up their whole family.'' Our troops 
gauge this nation's commitment to them by this country ensuring 
that they have the best facilities available to eat and sleep 
and usually taking care of their families.
    We don't always do a good job of that, and I am being 
generous. We were all sickened at the terrible treatment 
provided to our soldiers at Walter Reed. These building 
problems are because of the poor facilities oversight.
    The people that can make a difference are testifying before 
us today, and we look forward to hearing from you.
    With the sustainment that DOD has proposed for fiscal year 
2008, we should expect additional problems similar to Walter 
Reed. This committee will do what it has to to fix this 
oversight.
    The overall increase in proposed military construction and 
our ability to manage such a large program is problematic. This 
problem will only get worse because Congress cannot fully fund 
the BRAC 2005 account in a timely manner, pushing some 
construction into fiscal year 2008.
    The Department must manage this military construction 
increase very carefully and ensure that our soldiers and 
sailors have the correct facilities in time to meet their 
rebasing timeline.
    Finally, our troops deserve the best training available. 
Some of the services would rather train our troops in 
conditions that do not simulate deployed conditions. 
Encroachment flight patterns and land use constraints represent 
one of the biggest problems that confront DOD and our ability 
to train like we fight.
    The department should be prepared to make hard training 
decisions that ensure the best training for our troops.
    I look forward to hearing your testimony.
    The chair now recognizes the distinguished gentleman from 
North Carolina, Mr. Jones, for any remarks that he would like 
to make.

STATEMENT OF HON. WALTER B. JONES, A REPRESENTATIVE FROM NORTH 
                CAROLINA, READINESS SUBCOMMITTEE

    Mr. Jones. Mr. Chairman, thank you very much.
    And while my remarks will be brief in order to give more 
time to our witnesses, no one should mistake brevity for a lack 
of concern.
    The United States military has underfunded its installation 
needs for years, and the situation is worsening daily with the 
prospects of continued war and steeply degrading readiness.
    I think everyone knows that I have been very concerned 
about the course we have taken as a nation and the toll it has 
taken on our troops, our military families, and to a lesser 
degree our influence abroad.
    We in Congress have not discharged our responsibilities 
very well either with our inability to pass a military 
construction appropriations measure until this past month and 
our continued inability to fund the base realignment and 
closure part of that military construction bill.
    It cannot be easy for base commanders to manage under these 
circumstances, but our troops deserve better, as do the 
civilian communities, neighboring and supporting our military 
installations.
    I am not sure all levels of military leadership understand 
the impact that military bases have on local communities and 
the great efforts most communities undertake to support their 
local bases. It is absolutely critical that we fund these 
accounts for construction, maintenance and base support 
services in a straightforward, honest manner that is not 
subject to political and funding maneuvers.
    We all love and support our military and want nothing but 
the best for them.
    I look forward to hearing from our witnesses about the plan 
to create truly outstanding facilities and for managed 
installations well-integrated with their civilian neighbors.
    With that, Mr. Chairman, I yield back.
    Mr. Ortiz. Thank you.
    Our witnesses today are the Honorable Phil Grone, a good 
friend for many years--we used to work together--the Deputy 
Undersecretary of Defense for Installations and Environments 
for the Department of Defense; the Honorable Keith Eastin, 
Assistant Secretary of the Army for Installations and 
Environment; and the Honorable B.J. Penn, Assistant Secretary 
of the Navy for Installations and Environment--so good to see 
you again, sir; and the Honorable William C. Anderson, 
Assistant Secretary of the Air Force for Installations, 
Environment and Logistics.
    Now, without any objection, the witnesses' prepared 
testimony will be accepted for the record.
    What we are trying to do today is to stick to the five-
minute rule, if you can condense your testimony. The reason 
being that in a few minutes we are going to have a few votes, 
and then after that we have to come back and then we have a 
meeting at 4 and we have a full committee markup at 4:30.
    So, Mr. Grone, if you are ready with your testimony, you 
can begin.

 STATEMENT OF HON. PHILIP W. GRONE, DEPUTY UNDER SECRETARY OF 
            DEFENSE (INSTALLATIONS AND ENVIRONMENT)

    Secretary Grone. Thank you, Mr. Chairman.
    Chairman Ortiz, Mr. Jones and distinguished members of the 
Subcommittee on Readiness, I am pleased to appear before you 
today to discuss the budget request for the Department of 
Defense for fiscal year 2008, particularly those programs that 
support the management of our installation assets.
    The President's budget request continues the department's 
efforts to reposition, to reshape and to sustain the nation's 
military infrastructure at home and abroad.
    As this subcommittee is aware, the real property and asset 
management responsibilities of the department are extensive. In 
support of these responsibilities, the program supporting the 
department's installation management portfolio totals $56 
billion in this budget request.
    The budget supports a number of key elements of the 
department's comprehensive asset management strategy, and I 
will briefly mention a few.
    The request supports a facility recapitalization rate of 67 
years, achieving the goal of a 67-year recapitalization cycle 
for the department's real property assets. In 2001, that rate 
stood at 192 years.
    The budget request does, as the chairman indicated, provide 
88 percent of the need to sustain our facilities. If enacted, 
this budget will continue our efforts on military housing at 
home and abroad and military housing privatization remains 
central to our strategy.
    In last year's budget, we fulfilled our commitment--with 
the support of the Congress--fulfilled our commitment to 
eliminate inadequate family housing in the United States by 
2007 and the end state is we expect 90 percent of the 
department's military family housing inventory to be 
privatized.
    Through program efforts such as the Readiness and 
Environmental Protection Initiative and our outreach to the 
states, local communities, private and nonprofit land trusts 
and the environmental community, the department's effort to 
preserve and enhanced military test and training ranges are 
achieving results. And in support of the observation of Mr. 
Jones, this outreach to local communities is a key part of this 
program. The department has requested $30 million in the fiscal 
year 2008 budget to support these efforts to control 
encroachment with local communities.
    We also are continuing our aggressive approach to energy 
conservation and the purchase and development of renewable 
sources of energy. In fiscal year 2006, military installations 
reduced consumption by 5.5 percent, exceeding the energy 
conservation goal of 2 percent.
    All of these initiatives are critically important, but 
certainly among the most important is the implementation of the 
2005 base realignment and closure round. As you know, BRAC 2005 
affects over 800 locations across the Nation through 24 major 
base closures, 24 major realignments and over 760 lesser 
actions.
    The significant transformation to the total force and its 
operation capability, the department's business operations and 
to the savings ultimately derived from BRAC, require resources 
to meet adequately the challenge of implementation, and the 
chairman has indicated what those challenges are in the 
immediate term.
    While some committees of the Congress have taken action to 
restore the $3.1 billion that is necessary to implement the 
round in fiscal year 2007, I would add that as we sit here 
today, with the money that we have available, considering 
fiscal year 2006 and fiscal year 2007 and the reductions we 
have taken to date, we currently have on hand 53 cents out of 
every dollar the department has requested to implement BRAC 
2005.
    We are very, very hopeful and appreciative and supportive 
of the efforts of members here to restore the $3.1 billion that 
will help get us back on track and keep us on track for the 
statutory deadline for implementation of September 15, 2011.
    Mr. Chairman, the department is working hard, as I said, to 
reposition, reshape and to sustain our installations for the 
future. We recognize that installations are an important aspect 
of the generation of combat power and that they are critically 
important to the quality and well-being of military personnel 
and their families.
    We appreciate your previous support for our efforts and 
look forward to continuing to work with the subcommittee to 
conclude all of these initiatives successfully.
    Thank you, sir.
    [The prepared statement of Secretary Grone can be found in 
the Appendix on page 35.]
    Mr. Ortiz. Thank you.
    Secretary Eastin.

 STATEMENT OF HON. KEITH E. EASTIN, ASSISTANT SECRETARY OF THE 
              ARMY (INSTALLATIONS AND ENVIRONMENT)

    Secretary Eastin. Thank you, Chairman Ortiz, Mr. Jones.
    As you all are well aware, the Army is very busy. 
Concurrent with fighting the long war on terrorism, we are in 
the midst of transforming our army to meet our national 
security challenges. We are changing from a division-centric 
force to a brigade-centric army modular force to more quickly 
respond to threats around the world.
    In addition, we are on the verge of repositioning our 
forces worldwide through base realignment and closure and the 
global defense posture and realignment initiatives. Our plan 
integrates these initiatives and allows us to divest Cold War 
assets and infrastructure and create the infrastructure needed 
for the foreseeable future.
    This consolidation will yield a tremendous savings over 
time. We will reduce overhead costs by streamlining 
installation staff and contracting support.
    In addition, the President, as you know, has announced that 
the Army will grow by 74,000 active guardsmen and reservists 
over the next 5 years. We have asked for about $400 million in 
the fiscal 2007 supplemental and another $2.3 billion in our 
fiscal 2008 request to begin the process of providing 
facilities for these new soldiers.
    We are committed to providing you the details of those 
moves in 2008. We have given you the 2007 so far. We will give 
you the 2008 by the end of the month.
    We have continued to make significant measurable progress 
toward our goal of eliminating inadequate housing for the 
single and married soldiers. This budget will achieve almost 82 
percent of our goal of eliminating inadequate barracks and puts 
us on a glide path to reach the goal of total elimination of 
the inadequacies by 2013.
    Similarly, for family housing we continue to invest dollars 
in our residential communities initiative. By the end of this 
fiscal year, we will have privatized over 78,000 homes. At the 
end state, over 98 percent of our housing inventory in the 
United States will be privatized.
    For our reserve components, this budget will mean 1,743 
Army Reservists and 3,300 guardsmen will receive new centers as 
well as continue to modernize the Army Guard Aviation and 
Maintenance facilities. Under BRAC we will carry out 12 major 
and one minor base closure, conduct 53 alignments, close 387 
reserve facilities and construct in their place 12 new armed 
forces reserve centers.
    In all, this BRAC round, we have more than 1,320 separate 
individual actions under BRAC. Many of these actions are joint, 
requiring close coordination with other services.
    Through Global Defense Posture Realignment (GDPR), we also 
returned 50,000 soldiers and their families from Germany and 
from Korea. This repositioning will allow the efficient return 
of overseas forces and enable our installation commanders to 
focus their efforts on enduring installations rather than 
abroad.
    With your support, funds provided in fiscal year 2007 and 
this budget will allow us to complete planning, conduct 
environmental studies and begin the design and construction 
necessary to achieve our legal mandate to complete BRAC by the 
year 2011.
    As you are also aware, Congress did not--you must be tired 
of hearing this by now--Congress did not fully fund our 2007 
BRAC request. We are short almost $2 billion. We urge you to 
see to helping fund this shortfall as soon as possible. If not 
funded, the project would be cut our delayed, which has an 
operational impact on the training, mobilization and deployment 
of forces in support of the global war on terror.
    Mr. Chairman, with the generous help of this committee and 
the Congress, we have made tremendous progress in enhancing 
training and generating combat power in this time of war. 
However, despite these major improvements, the Army still 
requires significant resources to overcome years of 
insufficient investments in its installations and 
infrastructure.
    If resourced, our stationing plan will produce 
installations better able to train and prepare our forces for 
future missions. Our plan will also provide a quality of life 
for soldiers and their families that they deserve and which is 
commensurate with what they could attain in the private sector.
    We thank you for your help and look forward to answering 
your questions.
    [The prepared statement of Secretary Eastin can be found in 
the Appendix on page 60.]
    Mr. Ortiz. Thank you so much, sir.
    Secretary Penn, good to see you, sir. You can proceed with 
your statement.

 STATEMENT OF HON. B.J. PENN, ASSISTANT SECRETARY OF THE NAVY 
                (INSTALLATIONS AND ENVIRONMENT)

    Secretary Penn. Thank you.
    Chairman Ortiz and members of the subcommittee, thank you 
for the opportunity to discuss the Department of the Navy's 
installations and environmental efforts.
    I would like to briefly highlight a few topics that are 
discussed in more detail in my written statement.
    I am pleased to report a very substantial increase in 
investment for installations and environmental programs in this 
budget. We are asking for a total of $11.5 billion in fiscal 
year 2008, an increase of $1.8 billion above last year's 
request.
    I appreciate the efforts by the House to restore $3.1 
billion for BRAC 2005 implementation. The funds are critical to 
allow us to stay on track and attain the intended operational 
efficiencies while minimizing further turbulence in the future 
of our personnel and communities affected by BRAC 2005.
    We continue to finance our prior BRAC environmental cleanup 
and property disposal from the sale of other prior BRAC 
properties. We have budgeted to spend the last of the $1.1 
billion in land sale revenue in fiscal year 2008 while our cost 
to complete environmental cleanup on all remaining prior BRAC 
property has increased by $725 million since last year.
    Most of the increase is due to the recognition last year of 
substantial low-level radioactivity contamination at the former 
Hunter's Point Naval Shipyard in San Francisco, California. The 
low-level radioactive material is buried underground, 
undetectable on the surface and poses no risk to humans if left 
undisturbed. We are working this issue with the city, the 
regulators and the congressional delegation.
    I commend the Marine Corps for its efforts to eliminate by 
2012 its barrack shortfall for enlisted Marines for their 
current approved 175,000 end strength. The budget includes $282 
million for 10 barracks projects at seven Marine Corps 
locations. The budget also includes about $950 million across 
the baseline and supplemental budgets for a mix of facilities 
to grow the Marine Corps' permanent end strength to the 202,000 
by 2011.
    This initiative, which is separate from the current 
operations in Iraq and Afghanistan, will allow the Marine Corps 
to reduce the strain on individual Marines by establishing a 
more stable department deployment to dwell ratio and enhance 
their regular warfare capabilities.
    Both the Navy and Marine Corps continue family housing 
privatization efforts. Our investment of less than $600 million 
has attracted over $6.6 billion in private-sector capital to 
eliminate inadequate homes for our sailors and Marines with 
families.
    The Navy is successfully applying privatization to improve 
housing for unaccompanied sailors. The Navy signed the first 
Department of Defense barrack privatization contract in 
December 2006. Located in San Diego, this project will provide 
941 new two-bedroom/two-bathroom apartments and privatize an 
existing building. Construction will be completed in 2009. The 
Navy is in exclusive negotiations with the developer for a 
second barracks privatization project in Norfolk.
    Chairman Ortiz, I know that you were on the forefront of 
family housing privatization efforts some years ago in your 
district. Thank you for your early and continued visionary 
support. The seeds you helped sow continue to bear fruit and 
provide a quantum improvement in the quality of housing for all 
military personnel.
    Thank you, Chairman Ortiz.
    [The prepared statement of Secretary Penn can be found in 
the Appendix on page 86.]
    Mr. Ortiz. Thank you, sir.
    Secretary Anderson.

 STATEMENT OF HON. WILLIAM C. ANDERSON, ASSISTANT SECRETARY OF 
    THE AIR FORCE (INSTALLATIONS, ENVIRONMENT AND LOGISTICS)

    Secretary Anderson. Thank you, Mr. Chairman, Mr. Jones and 
other members of the distinguished members of the committee. On 
behalf of America's airmen, it is a pleasure to be here.
    I will begin by thanking the committee for its continued 
support of America's Air Force and the many brave and dedicated 
airmen who serve around the globe to keep the country safe.
    As our nation and department finds itself engaged in 
hostility and war for the 16th consecutive year, we are also in 
a transition period where the Air Force continues to evolve and 
remain indispensable as threats to our nation emerge and 
change. The Air Force is getting smaller, but our commitments 
are not.
    Airmen perform critical installations, environmental and 
logistics tasks that are intrinsic to every facet in the 
success of our missions. We are making process changes at every 
level of the Air Force which result in resource savings and 
more efficient operations. In these tumultuous times, our 
priorities remain consistent: winning the global war on terror, 
developing and caring for our airmen and recapitalizing and 
modernizing our air and space systems.
    Air Force facilities, housing and BRAC programs are key to 
supporting these priorities. At home, our installations provide 
stable training environments as we equip and reconstitute our 
force. Both our state side and overseas bases provide force 
projection platforms to support combatant commanders.
    Our bases are weapon systems, and in order to support our 
base-centric concept of operations, the Air Force has developed 
an infrastructure investment strategy that focuses on enabling 
the combatant commander to fight and win the war on terror, 
provide quality facilities, implement BRAC, sustain and 
recapitalize our aging infrastructure, all the while 
proactively supporting the operational environment.
    The fiscal year 2008 President's budget request for 
traditional MILCON is $1 billion. This budget carefully 
balances our facilities operations and maintenance accounts for 
sustainment, restoration and modernization with military 
construction to make the most effective use of available 
funding to support the air force mission.
    The 2008 budget request also includes $363 million for 
housing investment, which balances new construction, 
improvement and planning and design work. Housing is a very 
good new story for our airmen. Privatization continues to be a 
success, bringing quality homes to airmen and their families in 
less time than we could using traditional MILCON.
    To continue our aggressive BRAC implementation schedule, 
the fiscal year 2008 budget request includes $1.2 billion for 
BRAC-related activities, of which $910 million is construction. 
The Air Force is lead for 64 BRAC business plans and has equity 
in an additional 16 business plans. Full support of our funding 
request is critical to ensure we remain on track to meet the 
requirement of compliance for 2010. So, like our sister 
services, we are in the same boat on funding.
    We are committed to make BRAC and joint basing a raging 
success. However, several joint basing policy elements run 
counter to the spirit of efficiency and cost savings in the 
joint basing construct. The Air Force believes total obligation 
authority and real property transfer would serve as a 
disincentive to cost savings, efficiency and effective 
execution of customer expectations; these customers, our 
operational commanders, who should define requirements 
necessary to execute the mission and manage the funds to meet 
their needs.
    This year we commemorate 60th anniversary of a proud 
service, a service born of revolutionary ideas, forged in 
combat and proven through the decades of progress and 
achievement. The readiness and capability of our force to fight 
and win our nation's wars now and in the future depends heavily 
on the state of our operational infrastructure.
    I look forward to your questions. Thank you.
    [The prepared statement of Secretary Anderson can be found 
in the Appendix on page 108.]
    Mr. Ortiz. Thank you so much for your testimony.
    Before we go into some of the questions, and after 
consultation with the minority, I now ask unanimous consent 
that my good friend, Mr. Saxton, a member of the House Foreign 
Service Committee, be allowed to participate in today's hearing 
and be authorized to question the witnesses and he will be 
recognized at the conclusion of the questions from the 
committee.
    Let me begin, and I hope the bell don't ring, but, Mr. 
Secretary, Secretary Grone, I just received a copy of the 
department's decision to implement fiscal year 2007 military 
construction program.
    Why did the department issue policy not to execute any of 
the important operations military construction projects that 
this body authorized to support the war? Maybe you can give us 
a little explanation on that.
    Secretary Grone. Thank you, Mr. Chairman.
    In the spending plan which was required by the continuing 
resolution 30 days after enactment of the resolution, the 
secretary was asked to provide a spending plan to the 
committees for military construction, family housing and base 
realignment and closure.
    For the military construction and military family housing 
accounts, we consulted with the committees on appropriations 
and looked to the history, the legislative history to the 
extent we had access to it, of the derivation of the numbers 
for each of the respective accounts, military construction, 
Army, Navy, military family housing, et cetera.
    And in judging which projects ought to be in that, it 
became clear that the funding lines were those funds that were 
included in the President's budget, as authorized by the 
Defense Authorization Bill. And so that is how those particular 
projects were selected.
    Regrettably, because the funding in the continuing 
resolution did not provide sufficient funds to cover all of the 
projects that were authorized by the committee, there were 
projects that were identified by the committee that otherwise 
would have been executed if we had had a standard military 
construction enactment that we would be executing today.
    But without sufficient funds to cover everything, we 
selected those highest priority projects which are reflected in 
the President's budget and that could be immediately executed.
    For base realignment and closure, we had to go through a 
similar but much more complex process, where we had to array 
projects in to some degree a priority order of implementation 
within the resources that we had available without being able 
to understand or assure ourselves that the rest of the 
remainder of the $3.1 billion would be forthcoming.
    And so we looked at key projects that were imperative to 
operational requirements necessary to complete recommendations 
by 2011 on time and try working with the components to assess 
those priorities and the priorities that came forward to the 
Congress were largely--although there were some differences 
around the margins--largely a pro rata distribution to the 
components for execution. But we made some marginal changes 
necessary to improve efficiency of implementation and to 
support some operational imperatives.
    Mr. Ortiz. As I was reading through your statement, you 
indicated also that Congress's inaction to provide the balance 
of the $3.1 billion BRAC 2005 funding will, in your words, 
significantly jeopardize the ability to execute BRAC by 2005 by 
the deadline of September 15, 2011.
    Are you advocating that maybe we should delay the 
implementation of the BRAC deadline?
    Secretary Grone. No, we are not advocating delay of the 
round. The secretary's observations, all of our respective 
observations from an oversight and execution perspective, is 
that the inability of the Congress, if the Congress so chooses, 
not to provide the $3.1 billion, will have significant 
operational effects on the components as we implement base 
realignment and closure as well as challenge if not make 
impossible our ability to achieve the 2011 timeline.
    It is my sense that members have understood the secretary's 
argument, have taken it very firmly onboard, have understood 
the concerns of the operational commanders, and that is why we 
see some action here to restore those funds.
    Because my observation is that the members understand the 
critical nature of these funds to completing not just the job 
of BRAC on time, but to be able to keep the operational 
requirements, particularly for the Army, which is where a good 
deal of this operational requirement is, but certainly for the 
other services, to keep it on track, on schedule, and reduce 
operational risks.
    So I would not advocate, nor do we believe it is necessary, 
to delay the round. That will simply create deficiencies in the 
process, continue to have disruptions of schedules, delay the 
achievement of savings, which are necessary to put those 
savings back on target on military mission, whether it be at 
the installation level or in operations of wherever, we can 
judge, along with the Congress, if those monies ought to be 
more effectively spent.
    So keeping on schedule is critically important to the 
department's mission. 2011 is critically important to our 
mission. And the full receipt of funds that are necessary to 
carry out the implementation of those recommendations is 
absolutely critical to the future of the department.
    Mr. Ortiz. Thank you so much.
    Mr. Jones.
    Mr. Jones. Thank you, Mr. Chairman.
    It is good to see you again, Mr. Secretary, as well as the 
others on the panel.
    Mr. Secretary, how involved have you been with the issue 
dealing with the outlying field in eastern North Carolina?
    Secretary Grone. I have not been involved with it on a 
daily basis. We have observed the Department of the Navy's 
planning and programming for that project and have been 
involved from time to time, as needed. But the day-to-day 
management of it has been done by the Department of the Navy.
    Mr. Jones. The reason I asked that is I have looked at some 
of the analyses that have been provided to those of us in 
Congress and I really have had questions--and I will put this 
in written form--as to how much actual research and due 
diligence has been looking at site two versus site one, site 
one being the outlying field in Washington County.
    And I have spoken in the last couple of weeks to one--I 
won't use his name at this time, because I don't have his 
permission, but was an Air Force pilot that spent time in 
eastern North Carolina, out at Seymour Johnson Air Force Base, 
and he is helping me to prepare some very technical questions 
to the Navy.
    He does not have an interest in where the outlying field is 
located or not, but he does not think the Navy has done as much 
research as they should have done into the seriousness of bird 
strikes.
    And I will tell you, if you have never visited Lake 
Mattamuskeet, I am telling you, some of these birds are big, 
quite frankly. They are just huge. They are 70 and 80 pounds. 
And I see Mr. Penn shaking his head, so apparently he knows 
what I am talking about.
    I say this because this has become a hot-button issue. The 
governor of the state, the secretary of agriculture for the 
state of North Carolina have both taken some very strong 
positions in the last few weeks.
    And I don't have this county in my district. I have some 
counties that adjoin Washington County. It is actually Mr. 
Butterfield's district.
    But, for me, I want to make sure that this has been--in 
fact, in my prepared remarks that I read, ``and base support 
services in a straightforward, honest manner that is not 
subject to political and funding maneuvers.'' And I would hope 
there would not be military politics, so to speak.
    We all know there are problems with Oceana. We understand 
the issue, so to speak. But I want to make sure for eastern 
North Carolina that we do have the best of both worlds, where 
the Navy gets what it needs to train those pilots, but also we 
protect the natural beauty that has been blessed by God.
    And so I am really concerned, Mr. Penn. I am going to be 
putting this in written form to you. I don't think it is fair 
today, because we had not talked about this, to bring up a 
couple of the technical issues that I think that the Navy must 
address during the public hearings if not before the public 
hearings.
    But, Mr. Grone, I would like for you to also receive a copy 
of my letter, asking for this information in detail back to me 
regarding my concern of bird strikes, because this is going to 
be an issue that has got to be resolved before there is a go 
ahead by those of us in Congress.
    Secretary Grone. Mr. Jones, I certainly look forward to 
receipt of that.
    My understanding and observation is that the Navy did an 
extensive study on the question of bird strike and also looked 
extensively at the effect on the wildlife refuge there.
    The Navy certainly--and I yield to Mr. Penn for any comment 
he would like to make, but it was looked at extensively.
    We look forward, however, to any technical questions you 
may have. And certainly in the process that we are in right 
now, the public comment and overview process, it is critically 
important that we have those views. So we would benefit by 
that, and we will take a very hard look at it.
    Mr. Jones. Before I yield to Mr. Penn, you know, when you 
see in the paper that the governor is upset that the Navy is 
proposing to poison some of the wildlife and the birds, the 
ducks and the geese, I mean that is not good public relations 
(PR) for the Navy. If the solution is that you are going to 
take on the swans and you are going to end up trying to poison 
them, this is not helping the Navy and there has been other 
comments in the paper.
    And I realize there is always two sides to any story, and I 
want to make it clear that I am very pro-military. I think the 
world we live in is very dangerous. But I also want to make 
sure that there is a compatibility between the community and 
the military. And that has always happened in my district. This 
has been the issue.
    So I want to make sure that the Navy can say to those in 
the community and to the governor of the state of North 
Carolina, we are absolutely certain that we can live with God's 
creation.
    Mr. Penn, I don't know if I have a moment or two left, if 
you want to respond or not.
    Secretary Penn. Yes, sir.
    Mr. Jones. You don't have to.
    Secretary Penn. And we feel the same way, sir. We are going 
to live with it. We are going to do the right thing by 
everything. There is no intent to poison the birds. I mean, I 
don't know where that came from. A lot of things come out.
    We have done several weeks of extensive field work and 
drafted 12 technical reports, produced two consultations with 
U.S. Fish and Wildlife Service--they were a cooperating agency 
with us--wildlife experts and acoustics engineers. The Navy 
also hired three internationally recognized waterfowl experts, 
and their contributions were invaluable.
    We wanted to do this to make sure that it was aboveboard, 
there could be no question that the Navy is trying to sway the 
decision or the outcome.
    Mr. Jones. Thank you, sir.
    Secretary Penn. I am also a hunter, so--we will do the 
right thing, sir.
    Mr. Jones. Yes, sir, I believe that. And I will have a 
letter prepared next week to send to you and a copy to Mr. 
Grone as well.
    Secretary Penn. Look forward to receiving it, sir.
    Mr. Jones. Thank you, sir.
    Thank you, Mr. Chairman.
    Mr. Ortiz. Ms. Bordallo.
    Ms. Bordallo. Thank you very much, Mr. Ortiz. I am sure the 
members of the committee know that you will be visiting my 
home, the territory of Guam, very soon, to check over our 
military installations there, and we are very much looking 
forward to that trip.
    And I wish to say good afternoon to our very distinguished 
panel of witnesses.
    My first question is to Secretary Grone.
    Some have raised concerns that the Department of Defense 
lacks a commitment to the development of a master plan for the 
planned buildup on Guam.
    How satisfied are you with the level of coordination that 
has been achieved within the Department of Defense and among 
the services with respect to the planning for the planned 
buildup in the territory?
    What challenges remain for you and your colleagues as you 
work to bring together the various stakeholders within the 
department to finalize an integrated master plan for Guam?
    Secretary Grone. Thank you for that question. It is a 
critically important one.
    As you know, and as the members know, the careful 
discussion and negotiation, the agreement we reached with the 
government of Japan to comprehensively realign our base unit 
installation assets in Asia, in partnership with our Japanese 
ally, is critically important. A critical component of that 
arrangement is the relocation of Marines from Okinawa to Guam.
    And in addition to all the other military activity we have 
aboard the island for the Navy not associated with the move, 
for the Air Force, the coordination is a critical piece.
    My colleague, Mr. Penn, chairs the Guam Executive Counsel, 
on which Mr. Anderson and myself, and Mr. Eastin from time to 
time as circumstances warrant, sit. We sit with our colleagues 
from across the department. It is the platform where we 
certainly look at issues that are joint and even, you know, 
singularly, on a military component, to ensure that we are 
doing the right thing by planning, budgeting, looking ahead at 
all the issues that need to be addressed.
    It is also the place where we describe interagency effects 
and we can work tasks out of that, to work the Federal 
interagency as necessary, and also the joint program office, to 
be able to liase with the governor, yourself and other 
interested members and certainly the subcommittee to ensure 
that we have the right posture going forward.
    So I am satisfied that we have the right executive-level 
attention to the matter. I am satisfied that we are providing 
the proper oversight. And the Department of Navy is doing, in 
my view, a very fine job of coordinating this activity.
    Certainly, we do have challenges in the effort, but we are 
receiving very solid cooperation from the Japanese government, 
consistent with the agreement we reached. It will be a 
challenge of implementation, that wave of construction and the 
like. We recently had a whole series of technical visits to the 
island, looking at a whole number of things.
    So there was a lot of activity around the enterprise 
devoted to this issue, and I think we are postured well for the 
future.
    Ms. Bordallo. Thank you very much, Mr. Secretary.
    And to my friend, Secretary Penn, who has become quite a 
fixture in Guam at this point in time, the secretary will be 
visiting Guam at the same time Mr. Chairman, Chairman Ortiz, 
that we are visiting, Secretary Penn will also be on the island 
at the time.
    Mr. Secretary, two weeks ago the Navy announced that it 
will hold public scoping meetings on Guam, Saipan and Tinian 
during the first week of April to solicit input, suggestions 
and concerns from individuals from these communities regarding 
the planned relocation of the 8,000 Marines to Guam.
    To what extent can you assure us that the Navy will make 
every effort possible to address these suggestions, comments 
and concerns that individuals from these communities put forth 
during these scoping hearings and during the public comment 
period?
    Can you describe for this subcommittee the process by which 
comments from the local communities will be integrated into 
further planning for the build up on Guam?
    Secretary Grone. Well, certainly, ma'am, it would be, I 
think, advisable for my colleague, Mr. Penn, to comment more 
directly on the management of the process, because it is the 
Navy's responsibility to do that process.
    But as you well know, the public comment process in any 
process like that is critically important. I am quite certain 
that the Navy will take all the public comments from wherever 
they come, from the governor down to just the average citizen, 
quite seriously as we build up the planning that is necessary 
to execute this extensive and significant series of moves to 
enhance the national security.
    We have long had, as I mentioned earlier--what we are 
trying to do is work very closely in cooperation with 
governors, with local communities, on issues that affect the 
long-term stewardship and management of our installation 
assets. That places a great deal of premium on planning. It 
places a great premium on dialogue.
    And in that context, it is completely appropriate. It is 
necessary for us to take those comments very seriously. It does 
not guarantee that the Navy will agree with every comment.
    But the fact that those comments will be taken seriously, 
that they will be assessed, and frankly, as I have observed in 
many, many processes, we learn a lot in public comment and we 
change proposals from time to time as a result of public 
comment.
    So it is a very, very valuable part of the process.
    Ms. Bordallo. Secretary Penn, do you agree with that?
    Secretary Penn. Yes, ma'am.
    In fact, at this time we are planning, as long as there are 
individuals at the hearings, we intend to remain there. We are 
not going to have a set time, say until 4 until 6 or 6 until 8. 
As long as someone is there, we will be there to get their 
comments.
    As you know, it was announced in the Federal register on 
the seventh of this month that we were going to be out there. 
We have extended our comment period to the maximum possible, 
which is 60 days, and that is the window we are looking at.
    We have handouts for the various locations where we are 
going to be holding the scoping meetings. It should have been 
broadcast that there is information, there is a resource in the 
library, where they can get the information in advance to our 
getting there. And we have a really nice handout for everyone 
that shows up, telling them the process and the procedures for 
commenting.
    Ms. Bordallo. Mr. Chairman, if I could, just one quick 
question.
    Mr. Ortiz. Just make it short, because we have other 
members here.
    Ms. Bordallo. If there are changes, drastic changes, in 
some of these decisions, would you then go back to share that 
with the civilian community?
    Secretary Penn. That will come out in the final, yes, 
ma'am. It will.
    And one of the other things that I should mention is, we 
are working with all the other agencies. We are working with 
Interior, Labor, Education, Transportation, Homeland Defense, 
Homeland Security, to make sure we all have a package bundle, 
so we are all being considered to get the very best we can for 
this evolution.
    Ms. Bordallo. Thank you.
    Thank you, Mr. Chairman.
    Mr. Ortiz. Thank you.
    The gentleman from Virginia, Mr. Forbes.
    Mr. Forbes. Thank you, Mr. Chairman, and thank you for 
holding this hearing.
    Thank all of you for being here today. I just have two 
questions for the panel.
    As you know, many of our facilities under the BRAC program 
have worked very, very hard to stay on schedule, some of them 
ahead of schedule. The surrounding jurisdictions have just gone 
to bat to make that happen.
    The two questions I would have for you is, let us assume 
that the unfunded fiscal year 2007 BRAC allocation was 
restored. How long would it take for those funds to be executed 
at the post level?
    In other words, is there sufficient time remaining in the 
fiscal year to stay on schedule and execute the funds as were 
originally projected, especially for those facilities that have 
been on schedule and maybe some of them even ahead of schedule?
    And the second thing is, outside of funding, have you run 
into any ambiguity in the BRAC language that in any way could 
cause a delay or serve as an obstacle for implementing or 
moving forward with BRAC projects?
    Secretary Grone. Mr. Forbes, let me try to answer both 
questions, and then my colleagues may wish to elaborate.
    For purposes of execution, I can only go back to the fiscal 
year 2006 monies that we had. Now, admittedly, it was $1.5 
billion, but there were two aspects in the last fiscal year 
that I think merit attention.
    One is that we were ultimately provided through 
appropriation $400 million less than was requested. And because 
of some reporting requirements that the Congress had asked, 
fund release was delayed for a couple, two to three, months.
    In the time that remained in fiscal year 2006, we executed 
nearly all of the funds and very early in the first quarter of 
fiscal 2007 we had executed nearly 92 percent of the funds. So 
we had positioned ourselves in a position with contract 
vehicles and the like to, as soon as we were in the middle of 
fund receipt, we could begin to move projects and execute the 
program.
    We have similarly positioned ourselves presently with the 
$2.5 billion and would do the same with the remainder.
    I can't tell you that every dollar would be expended by the 
end of the fiscal year, but my expectation is that very early 
in fiscal year 2008, similar to what we saw in fiscal 2006, 
that those monies would be committed and executed in a very, 
very timely way.
    So I am confident that my colleagues have execution plans 
in place that will put dollars on target as soon as we have 
funds received.
    Mr. Forbes. Any language barriers that are causing delay?
    Secretary Grone. We continue to work through certain 
ambiguities of commission recommendations as we are developing 
implementation plans. That said, I see nothing there that would 
cause us to miss the September 2011 deadline solely as a matter 
of language. I don't foresee that.
    Mr. Forbes. Thank you, Mr. Chairman.
    Mr. Ortiz. We have about three votes, and it is going to 
take us about 20, 25 minutes, but we will continue on.
    I yield to Ms. Giffords now for any questions that she 
might have, and we will see if we can maybe wait until we have 
about five or six minutes left before we go vote.
    Do you have any questions?
    Ms. Giffords. Thank you, Mr. Chairman.
    My question is for Secretary Eastin.
    You talked about the Army increasing--I thought the number 
was 65,000, but you had referenced the number 74,000 in terms 
of increase of the force and increased numbers of soldiers.
    Can you talk a little bit about how you go about doing 
that?
    When I go back to my district, and I communicate to folks, 
at Fort Huachuca, which is in Sierra Vista, they understand 
because of just the nature of that geography. But for folks 
around the district, southeastern Arizona, what is actually 
going to take you to increase our facilities in order to 
accommodate 74,000 soldiers across the country?
    Secretary Eastin. The increase is broken down into several 
pieces.
    First, we were working on a temporary 30,000 increase. The 
number we are looking for is 482,400. And then we are going to 
add 30,000 to it that were in large part already onboard. Then 
we are going to add another 7,000 per year for 5 years. So that 
is not like we have to swallow up 65,000 all in 1 year.
    Many of the 30,000 are on board, and we just have to get 
the Army story out there, indicate what an opportunity it is to 
serve your country, and from our point of view we need to make 
the installations and the experience, as much as an early 
military experience can be, rewarding.
    Say, your first six weeks or so, I am not so sure about 
that, but thereafter, to make sure that we take care of the 
soldiers, we take care of their families and reward them in the 
way that they are rewarding us by their service.
    Ms. Giffords. Thank you, Mr. Chairman.
    Secretary Eastin, do you have any concerns or areas that we 
should be focused on about this? You talked a little bit about 
the numbers, but are there areas that we can be helpful with?
    Secretary Eastin. We deal, of course, on this committee and 
in my lane, with providing infrastructure for our soldiers and 
their families to live on and to work with. Turning these 
installations into models of mini city governments, where they 
can return to and be happy about when they are in the fight, 
they can look down the barrel of their rifle and see an enemy 
and not look down the barrel of their rifle and worry about how 
their wife and kids are being taken care of back here.
    So I consider it our duty and our responsibility to provide 
them with the best care, the best facilities we can, and really 
show what it is, how we appreciate their services.
    Ms. Giffords. Thank you.
    Mr. Ortiz. We will continue for the next five minutes, Mr. 
Bishop, then see if we can get there and vote.
    Mr. Bishop. Thank you. I will talk fast.
    I appreciate being down here and I hope you guys will hurry 
up and do your whipping so we don't have to wait for more votes 
when we get on the floor.
    First of all, I would be remiss, Secretary Grone, if I 
didn't thank you for your service to the country, and 
especially what you have done for me, my staff and my district 
in the state of Utah. Thank you very much.
    My question, though, today, it is actually two questions, 
are for Secretary Eastin.
    And I will apologize. I have to pretend I am a senator and 
I have to get some kind of preface to this thing. And I 
apologize. It is obviously a parochial question or we wouldn't 
be here.
    But I represent in Utah two Army installations, the Tooele 
Army Depot as well as the Dugway proving grounds. And I know 
the challenges the Army faces in your MILCON dollars, and they 
are significant.
    But I am concerned about the matrix in the MILCON dollars 
that is resulting in what I think is significant neglect and 
deterioration of the infrastructure and the facilities at 
Tooele as well as Dugway, which are not training bases, they 
are not forts, they are support installations.
    Tooele Army Depot has not had a MILCON project approved in 
15 years, even though they have been in the pipeline, they have 
been valid, but they have never seemed to make it in the fight 
after they have been kicked down for other priorities, which in 
the first 15 years I was empathetic, the last 15 years I was 
sympathetic, now I don't care.
    We have also met people on your staff who thought Tooele 
was actually closed in BRAC 1995 when it was merely realigned, 
and it still has a significant storage mission as well as 
several hundred civilian employees that are there.
    I want, though, to focus my two questions on Dugway proving 
grounds. I am getting both shots in while I have the chance.
    This is a unique mission in chem bio defense. It is the 
only place where outdoor stimulant testing can take place, so 
it is obviously in a remote, isolated area of the Utah desert.
    For the past eight years, Dugway has had a MILCON project 
need in their life science test facility. It is based on the 
post 9/11 workloads. The current facility, built in the 1980's, 
is completely full, and the scientists are now conducting their 
lab work with the chemical and biological agents in temporary 
trailers in these harsh desert conditions. It doesn't inspire a 
lot of confidence in either the Army, the employees or the 
citizens of my state who have traditionally supported our 
military very strongly.
    This facility project has again this year been slipped to 
the end, and it has happened time after time, which, once 
again, I can tell you by this time I don't care.
    In the civilian housing area, our facilities are crumbling. 
The community center, the ceiling is taken down. Half of it is 
closed because of a lack of working plumbing.
    And remember, this is an isolated area. It takes you 90 
minutes at 70 miles an hour on a two-way road to get there to 
any kind of shopping or service area. They can't go to outside 
commercial opportunities outside the front gate.
    So the first question, which is generic, is: What is the 
Army proposing to address the long-term needs at these support 
installations, like Tooele and Dugway, which I believe have 
been put on the back burner too long?
    Second question, which may be even more specific to Dugway, 
is: If the Army isn't going to fund them, have you ever 
considered the idea of turning the Dugway proving ground into a 
nonprofit research institution, or giving it over to the state 
of Utah, which may actually care? Given the lack of these 
resources, would you be supportive of a privatization study for 
the testing facilities that are presently being done at the 
Dugway proving grounds?
    Secretary Eastin. Let me answer your last question first.
    We are open to all suggestions, such as privatizing 
something like this, because believe it or not, we don't feel 
particularly good about shoving these projects out to the 
right. I know Dugway and the life science center has been 
shoved out to the right several times, and it is going to be 
small solace to you to know that you are one of a couple 
hundred other projects that have gotten shoved out to the right 
while we are fighting wars and trying to build buildings for 
BRAC and for our Army modular force initiative.
    We are trying to take care of the troops, and unfortunately 
some of these that are not on the frontlines of what the Army 
does sometimes seems like we don't care. We do care. And if 
there are other options for getting at least the life science 
center off of the front page or the disabled list, if you will, 
we would be happy to hear them, and I would be happy to work 
with you or your people.
    Mr. Bishop. I appreciate that, Mr. Secretary. I am not 
trying to be difficult on this. I realize the problems you are 
facing. I realize the MILCON problems have not been helped 
necessary this year so far and we may have other difficulties 
that go along with that.
    But in some respects, it is difficult trying to get some 
kind of attention for areas that are very remote and have the 
facilities that continue to keep crumbling simply because, as 
you mentioned, they get shoved back there. It is not that they 
are not valid programs. It is the prioritization.
    That is why I am wondering somewhat about the matrix that 
is used on the evaluation of these particular projects.
    Thank you.
    Mr. Ortiz. We only have five minutes, but I will tell you 
what, you can continue with your questioning, and we will give 
him time to respond, because we only have about five minutes 
for the vote.
    Mr. Bishop. Actually, I am done. You can forget about me 
the rest of your life.
    Mr. Ortiz. What we are going to do is, we are going to 
raise the speed limit.
    Thank you.
    We will be right back. It is going to take about 20, 25 
minutes.
    [Recess.]
    Mr. Ortiz. We are going to see if we can now resume our 
hearing, because we do have a meeting at 4. I think we have 
ample time to finish this hearing today. I think that more 
members will be coming in.
    But, Secretary Penn, I am concerned about the encroachment 
and the department's current intent to address these issues. 
This is a concern that I have had for many, many years about 
encroachment at many military bases.
    The chief of naval operations recently visited my office 
and in my opinion has developed a strategy that only ensures 
that encroachment at our navy training bases doesn't get any 
worse at Naval Air Station (NAS) Oceana.
    The training conditions of our naval aviators, that they 
use, are deplorable, and I am sure that you are aware that many 
of the folks in North Carolina, including the governor, are 
against the building on the outlying landing field in the 
proposed area.
    I was just wondering, why doesn't the Navy adopt a strategy 
that allows noise levels to be reduced at NAS Oceana and more 
of the fleet replacement squadron for training and pilot 
readiness can be developed.
    And this is not the only place where we have problems with 
encroachment. I mean, you go to Camp Pendleton, you go to many, 
many other bases, and the training is miserable because you can 
train here, then you get on a bus and you move someplace else 
to continue training. But Oceana is a problem because it was 
brought up to you on the Base Closing Committee. Maybe you can 
elaborate on some of what I just asked you.
    Secretary Penn. Yes, sir.
    As you know, Oceana is a master jet base. We have all the 
equipment, all the facilities, everything we need there to be 
operation ready, to enhance our operational capability, 
including surge capability.
    Oceana is strategically co-located with other major naval 
facilities and bases in the Hampton Roads area, making that a 
fleet concentration area. And it is ideally located and close 
to regional training ranges and the carrier operating areas. 
That is the reason.
    Mr. Ortiz. But, you know, I think that overall we are going 
to have to look at all of these bases. I think that these bases 
provide many good things, civil service jobs, to the 
communities, and if the communities are not concerned about 
encroachment, there are other bases that do their best not to 
put those that are training in harm's way.
    I think this is something that, we are going to look at it 
and I am not sure what the solution would be, but what 
restrictions can be put on communities if they start annexing 
land and land and land. Before you know, the bases don't have 
any areas of training and it makes it very dangerous.
    Some of the pilots I have talked to said that it is just 
like landing in a mall, because of the lights. And this is 
Navy. They should be landing out at sea----
    Secretary Penn. Right. Where it is really dark.
    Mr. Ortiz [continuing]. And the training is very, very 
difficult for them.
    So I hope that as we move on, that we can find a solution 
to this problem, you know. You just heard my friend from North 
Carolina, they are still having problems whether they can get 
an outlying field there or not.
    So does anybody want to touch--Mr. Grone, would you like to 
touch on that?
    Secretary Grone. Sir, I think that Mr. Penn has adequately 
addressed the operational requirement as the Navy sees it. Our 
judgment was to concur with that judgment.
    Mr. Ortiz. Mr. Jones, do you have any questions?
    Mr. Jones. I will be real quick, because Mr. Saxton----
    Mr. Ortiz. Oh, Mr. Saxton is here.
    Okay. He yields to Mr. Saxton.
    Go ahead.
    Mr. Saxton. Thank you very much, Mr. Chairman.
    Mr. Eastin, during the last Base Realignment and Closure 
Commission, some of us were unconvinced that the closing of 
Fort Monmouth was the right decision. And the chairman of the 
Base Realignment and Closure Commission actually was told by 
the secretary of the Army that under no circumstances would the 
Army permit the move to sacrifice or short-change ongoing C4ISR 
support for the service and warfighters in the field, 
particularly during this war.
    The chairman then added language requiring the secretary of 
defense to submit to Congress a report that a movement of 
organization functions and activities from Fort Monmouth to 
Aberdeen proving ground would be accomplished without 
disruption of their support for the global war on terror.
    The language required a report. I would like to know where 
the report is. And will you, as a representative of the Army, 
can you tell us whether the Army will proceed with the closing 
of Fort Monmouth if you realize that it does have a derogatory 
effect on C4ISR progress?
    Secretary Eastin. Thank you, Congressman.
    First, we have no intention of closing down Monmouth unless 
we have some redundancy someplace else. We will not go to 
Aberdeen and have one particular service that Monmouth is 
provided that is uncovered somehow.
    This is not just because Congress willed it that way or you 
think it is a good idea. I think it is good to keep these 
services to the country. They are very important and they need 
to be seamless. And as you know, whenever you put pieces of 
equipment, especially highly specialized and technical 
equipment, such as they are using up there together, you need 
sometimes to run it in parallel with what is in existence up 
there already so that we know they have the same capabilities.
    So we are not going to do that unless we have the others 
running in parallel at the same time.
    With respect to the report, Army Material Command, which 
has the cognizance of the Monmouth operation, is preparing that 
report. Needless to say, the closer they get to actually having 
to do something there, the more fidelity that report is going 
to have.
    I do not know the status of it, although we know we owe it 
to you.
    Mr. Saxton. Would it be possible for you to check on the 
report and get back to us?
    Secretary Eastin. I will be happy to. I know they have been 
working on it, I just don't know where it is.
    [The information referred to can be found in the Appendix 
beginning on page 173.]
    Mr. Saxton. Thank you.
    Secretary Anderson, I guess it has probably been the better 
part of--it was two years ago that I sat down and visited with 
Mr. Grone about the concept of joint basing and creating joint 
bases. It has been some time ago.
    But we laid out in about an hour-and-a-half conversation 
some concepts and parameters that we thought would be good, to 
recognize the fact that we fight together, we go to war 
together, that we train together, that we live together and 
that we have separate bases, and that there were some 
opportunities to create joint bases.
    And that process was recommended to the Base Realignment 
and Closure Commission, and the concept in the report was 
adopted. The details of working it out were left to the 
services to work out together, and I think that was probably a 
good move. But the process seems to have gotten slogged down 
here recently over a couple of issues.
    One issue is quality-of-life issues, and they are 
important, and I fully recognize that they are important. And I 
recognize there are different cultures in the different 
services, and I realize what a difficult time it is to bring 
them together.
    All four services happen to be based with significant 
number of people, particularly the Army, the Air Force and the 
Navy, and to some extent the Marine Corps, in my district. So I 
live with them all, and I understand the difficulty and the 
issues of bringing cultures that are somewhat different 
together.
    I also know that the Army and the Navy and the Marine Corps 
have agreed on one concept of land transfer and that the Air 
Force holds a different position, which you I think mentioned 
in fact in your opening statement.
    I would just like to say that this issue is the Magilla 
Gorilla issue on the block right now as far as I can see, and 
it needs to be solved, and if you are the one guy out, meaning 
the Air Force, then it seems to me that you have a special 
responsibility to either convince the other services that you 
are right, make a deal with them, make an arrangement with 
them, or yield to their position.
    I think this is extremely important. I can see both sides 
of it and I know it is a thorny, difficult issue, but in having 
talked to representatives of the Air Force and the Army and the 
Navy and the chief of staff of the Air Force just a week ago, 
and while I won't pretend to know exactly what DOD's position 
is, I think I have a pretty good idea inside, and I think we 
just need to get this set of issues behind us.
    Failing to do that, I believe deeply in the concept of 
jointness in basing. And if the services can't pursuant to the 
recommendation of the commission do it themselves, then maybe 
there are some other people in this town who will have to take 
a look at doing it with you or for you. And I don't think that 
is a good thing for us to talk about doing.
    So I guess my question is, what are your plans on resolving 
these issues and do you think you will need any help in the 
future?
    Secretary Anderson. Great question. Actually, there are a 
number of them in there and I will try to address each of them. 
I hope I can. And I am sure you will remind me if I miss a 
piece.
    Let me first start off with the position that the Air Force 
has, and I believe agreed by all parties here at the table, 
that joint basing is important. The efficiencies that can be 
driven through joint basing, the delivery of services in a much 
more effective manner, great idea. Unfortunately, it took an 
act of Congress to actually get the services to start talking 
about it, which kind of just personally I don't know why it 
took that much, but be that as it may, it did.
    You raised quality-of-life concerns. And you are right. 
From the Air Force position, the joint basing is an opportunity 
to not only maintain quality of life but actually, from our 
perspective, improve the quality of life, not only for every 
soldier, sailor, airman and Marine that is serving in uniform 
today, but maybe even more importantly, making sure that the 
families that are left behind with multiple deployments have 
the best possible services and infrastructure they can possibly 
have.
    So we are pushing very hard to make sure that not only 
quality of life is maintained at the highest level of the 
combined, the individual piece of each combined base, but we 
believe it is an opportunity to actually improve quality of 
life for everybody across the board.
    The Air Force doesn't disagree at all about the ``what'' in 
terms of, as you laid out, what is trying to be accomplished by 
joint basing. The ``how'' is a little bit of a different matter 
from our perspective.
    You talked about speed, and I agree. This is something that 
we ought to get done, get done quickly and get done 
effectively. Our position is rather than pushing 12 bases into 
this at one time, potentially creating 12 sets of the same 
mistakes, that we go through a process by which we bring the 
mistakes up in a database of the situation, learn from them, 
fix them, and then push them out to the other bases much more 
quickly and effectively in order to speed up, not slow down, 
the process.
    The first step of that was actually worked out in a 
discussion between the Chief Naval Officer (CNO) and the chief 
of staff of the Air Force, and I think they did a terrific job 
of saying why don't we start with a tabletop exercise. The Navy 
has agreed. The Air Force has agreed. Recently the Army has 
asked if they could join, from what I understand, and the 
answer is emphatically yes.
    That we can learn, through going through this exercise on a 
table and developing and dealing with issues, then take this 
out to two bases or three, whatever is the most appropriate, go 
to total operational capability in joint basing, at those 
bases, learn from those bases, and all of the lessons learned. 
Then we can consolidate them and push them out to all the rest 
of the bases and move much quicker with the residual of the 
remaining bases, to get them up to speed and generate savings 
and efficiencies much quicker than by just pushing it out and 
learning the same lessons 12 times and having to fix them 12 
times.
    The other area of interest is this debate about transfer of 
title, transfer of Table of Allowance (TOA). From the Air Force 
perspective, we look at this as a consumer and a supplier 
relationship, just like the outside market, where a consumer 
controls their purse and a consumer controls their real estate 
and they go to a service provider to provide whatever that 
service happens to be, whether it is child care or dining 
facilities or what have you.
    The natural tension between the bill payer and the 
individual who provides the service is the most effective 
manner, it is free enterprise, the most effective manner of 
driving costs down and driving efficient delivery of service. 
And that is our position as related to transfer of title and 
TOA. If you move it all to one party, that tension and pull 
between a purchaser and a supplier gets lost.
    We believe controlling the purse against the group that 
actually provides the service is what is going to provide the 
best platform to provide efficiency, effectiveness and cost 
savings in the joint base construct. So we want it to be a 
raging success.
    That is why we are pushing for an approach in our mind that 
gives us a much greater possibility for having a tremendous 
success with joint basing. We are 100 percent behind it and 
think we ought to get it right.
    Mr. Saxton. Mr. Chairman, I know that my time has expired. 
But I wonder if there is time to let the other service 
representatives at the table----
    Mr. Ortiz. We will give them time to respond.
    Mr. Saxton. Would you gentlemen like to talk about these 
issues? I think you hold a little different position, perhaps?
    Secretary Eastin. I am not sure we in the Army agree about 
TOA and land ownership. If we are going to have a joint base, 
in our view, it ought to be truly a joint base, and that is 
just our point of view.
    I think that if the Air Force is coming to the table with 
the Army running the show, they ought to be giving up their TOA 
and they ought to be giving up their land. Vice versa with the 
Army. If we are going to go over and have the Army basically 
run the base in conjunction with us, we ought to give them the 
land and the TOA involved.
    Probably room for everybody to have their opinion in these 
things and ultimately the grand arbiter in the sky, who is 
sitting here on my right, will have to make these decisions.
    Secretary Penn. Sir, I agree with Mr. Eastin. I ran the 
largest air station in the Navy and I probably had 30 
squadrons, three aircraft carriers, two cruisers, and numerous 
other commands, and I was the landlord and it was very easy. It 
worked. It worked for me personally and I think the concept is 
valid.
    Mr. Saxton. Listening to Secretary Anderson, it seems to me 
that the issue of how you keep everybody equitable from a how-
you-pay-for-things point of view is a big issue. Is that right?
    So if the Army is going to run the Washington base and the 
Air Force is going to run the New Jersey base, it seems to me 
that there could be some parameters developed with regard to 
governance to solve these issues so that the actual concept of 
who owns the land takes a lesser position and the concept of 
how you run the base takes a higher position.
    And once again, I just hope that these issues can be 
resolved in a timely manner so that we can move forward with 
all of the I think great efficiencies and coming together of 
the services that I know are so healthy for the services and 
the men and women that serve in them.
    Thank you.
    Mr. Ortiz. Ms. Boyda.
    Mrs. Boyda. Yes, thank you, Chairman Ortiz.
    First of all, when you were giving your opening remarks you 
mentioned several times that you appreciate the support of this 
committee and your funding, and I would just like to say I 
appreciate what you all have been through.
    I represent Fort Riley and Fort Leavenworth, Forbes Field, 
and I also have the Kansas National Guard headquarters in my 
district, so we have been living through the train wreck caused 
by this BRAC problem and the fact that there was no funding for 
the BRAC installations, not adequate funding, as of last 
October 1.
    So you all have done a yeoman's job in getting through that 
and I think you have the commitment of leadership on hopefully 
both sides of the aisle to make sure that we make up for that 
shortfall, get that money to you as soon as possible and get 
back on with what you are doing with BRAC funding. So thank you 
for that.
    Honorable Mr. Eastin, I had a question for you about the 
Parsons Army Ammunition Plant that was part of the BRAC 
funding. I have been down there to the BRAC. We have had some 
Army materiel come in, people come down. I have got to say that 
what has happened has been less than satisfying, and that might 
be polite.
    We are looking for a list to tell people what is going to 
be left at the plant and the ability to get that list as early 
as possible will really help the economic development in that 
area. It is 200 jobs. Maybe in many districts 200 jobs isn't a 
big deal. In Parsons, Kansas, and Leavenworth County, Kansas, 
it is a big deal. That Army ammunition plant has been around 
for 50 to 60 years, and it is very much part of the community.
    I would like to just ask for your support in helping us get 
that list, and I was wondering if I could even ask you to 
accompany me down to Parsons at some point and say can you help 
us make sure that we are getting a speedy and fair hearing on 
what would be left there in the plant.
    Let me just also describe the good people of Parsons, 
Kansas, for a minute. They want whatever is best for the 
military and whatever is best for our country, and I mean that. 
They are as fiscally conservative and responsible and as 
patriotic as they come. If it makes sense to move that 
equipment, then they are going to be behind it 100 percent.
    That equipment has been there for over 40 years, and it is 
very hard for people to understand why moving that would be 
economically viable. And so it is a great big concern in the 
community. And I was wondering again if I could just ask for 
your support in just helping to resolve that. Clearly, they 
would just like to be able to open that facility and to run it 
privately. And have the county be the landowners and transfer 
that so that you can get out from under that facility as an 
Army Materiel Command (AMC) facility.
    Please, sir.
    Thank you.
    Secretary Eastin. I am sorry you had a less-than-
satisfactory experience with AMC. I have personally found them 
charming and wonderful.
    Let me tell you about the munitions plant and my view of 
the BRAC law. The BRAC law is that we leave and we take the 
equipment we need, but that the default position of the Army 
and in fact all the services is, the equipment stays unless we 
need it.
    Now, I know AMC is doing a report on this, assessing their 
needs. I am told it should be to you people in mid-April or so.
    Mrs. Boyda. Excuse me. It was my understanding--have we 
moved back now?
    Secretary Eastin. I am sorry?
    Mrs. Boyda. It should be--we have been told March, for 
sure.
    Secretary Eastin. I am told we will have this--we meaning I 
guess me--will have this by the end of March. And someone has 
assumed for me that it is going to take two weeks to look at 
it. That is why I----
    Mrs. Boyda. All right. Thank you.
    Secretary Eastin. My friendly note-passer tells me mid-
April here.
    So being what it is, we will have this fairly shortly.
    Mrs. Boyda. I certainly appreciate anything you can do. 
Again, being in no-man's land is probably the worst of all 
possible worlds, so I would appreciate anything that you can do 
to just help get clarity on that and, again, to make sure that 
if anything is needed, of course, and I mean this, people in 
Parsons will say, ``It needs to go.'' But let's just get 
clarity and leave anything that can help keep jobs in that 
community.
    Let me just also ask, please, to Secretary Grone about the 
Office of Economic Adjustment (OEA) money. It certainly appears 
in the President's 2008 budget, what, it is down about $80 
million from $137 million in 2007 and this year it is down to 
$57 million, something like that? This is just the kind of 
money that will really help Parsons recover from losing this 
longstanding business in their community.
    Can you help me understand that, please?
    Secretary Grone. Certainly, we view the role of OEA as 
critically important, as the principal agency within the 
department not concerned with implementation, per se, but in 
equitable transition. And the comparative numbers that you 
suggested I believe are appropriated dollars. The Congress had 
added funds, and in some cases earmarked some funds for certain 
projects, prior year activity or certain planning moneys.
    We believe that the funds that are requested in this year's 
President's budget are sufficient to support the planning and 
adjustment activities that we require in this coming fiscal 
year. And OEA has been, is playing a key role, in our liaison 
with state and local communities. So they are a critically 
important part of the transition from my perspective.
    Mrs. Boyda. So if I understand you correctly, you are not 
seeing any pull back at any services and we can expect the 
same, a full, basically, transition, and make sure the clean up 
and everything, you anticipate that to be----
    Secretary Grone. Well, cleanup is not a function of OEA.
    Mrs. Boyda. I apologize.
    Secretary Grone. It is a function of the components.
    But in terms of the work that OEA will be doing with local 
communities, the director of OEA has a case manager assigned to 
each and every major action. That case manager works very 
closely with the local communities, with members, as you know.
    That role is absolutely critical. They work very closely 
with the military departments in coordinating actions and they 
are basically the honest broker at the table to refer people to 
appropriate other Federal agencies or internal to the 
department, to try to break red tape and keep things on track.
    I mean, I view them as playing a very, very crucial role.
    Mrs. Boyda. I will do everything I can to keep that funded 
from this end. Thank you again for----
    Secretary Grone. Certainly, if there are issues in the 
disposal process and the economic redevelopment process 
affecting the installation, certainly Mr. Eastin and I will 
work that aggressively. I have been very clear as a matter of 
departmental policy that our objective is expeditious 
transition of the mission in order to assure expeditious reuse 
of property.
    Mrs. Boyda. Thank you.
    Secretary Grone. We have no interest nor desire to hold 
property in caretaker status for any lengthy or considerable 
period of time. We want to assist communities to get to viable 
economic redevelopment as quickly as we can.
    Mrs. Boyda. That is certainly our goal.
    Secretary Eastin, thank you again for your support.
    Mr. Ortiz. I have one question before I yield to my good 
friend Shea-Porter.
    Secretary Eastin, as I indicated in my opening statement, I 
am embarrassed and appalled as to the living conditions that 
have been provided to our wounded warriors at Walter Reed. When 
General Kiley testified before our committee, he indicated that 
the A76 process contributed to the deterioration of the state 
facilities at Walter Reed.
    And my question is, did the A76 process contribute to the 
present conditions at Walter Reed?
    Secretary Eastin. Mr. Chairman, I do not believe so.
    The A76 process in the case of Walter Reed was, I can't 
even describe the process too well. It started in 2000, in the 
year 2000, and did not end up until the transfer early in 
February of this year. It went through 17 amendments. I 
sometimes got the idea looking back through this that maybe our 
own management was not entirely behind this issue.
    Bottom line, it just took entirely too long. Did it affect 
what went on out there? It is never a happy circumstance when 
you come to work and are living in what you might think of as 
jeopardy to your job, but this is how the process works, and it 
is designed to get the most cost-effective operation wherever 
we do the A76.
    We have done thousands of these position competitions and 
basically the employees probably win more than two-thirds of 
these things. In the case of Walter Reed, however, the 
employees came in with an operation that was slightly higher 
than the private sector did, even taking into account their ten 
percent benefit by this.
    In looking back at what happened, if you want to look at--
if you can measure these things by the number of people 
onboard, with 10 or 20 we have had the same number of people 
onboard at Walter Reed in these functions, which is the public 
works base operations functions. It was not housekeeping and it 
had zero to do with providing medical services. These are 
basically go fix the window, go fix the air conditioner, make 
sure the rug is okay, that kind of thing.
    Nothing--we started out with about 320 positions last June, 
before the final days of the A76 process. By the time the 
contractor took over, there were some 290 positions left at 
Walter Reed and the contractor now has 320 positions. People 
doing the same amount of work at Walter Reed.
    So it started at a level, it went down some as we went 
through a reduction in force, a RIF, which by the way was 17 
people out of the 300-some people. It wasn't a massive you are-
all-gone. It was 17 people. And so it stayed, the amount has 
stayed steady throughout.
    The garrison commander and the director of public works at 
Walter Reed, I assume you are referring to Building 18, had the 
ultimate responsibility for Building 18 and they had it up to 
the day the contractor took over.
    They had adequate people onboard. I have seen some crazy 
numbers out there, that it got down to 50 or 60 people. I don't 
know where that number came from or how you count. I mean, 
there are various ways to count. But from what I can determine, 
the number stayed relatively the same throughout the period, 
within 20 or 30 positions out of 300.
    The contractor that we put onboard came on on the 14th of 
February. The Washington Post story came out two weeks later. 
And they promptly got on it, but I don't think we can fault 
them for a couple of weeks in trying to get their hands around 
what it is to do at Walter Reed.
    We may think a lot of--that the A76 process itself is 
controversial in some quarters. It is not particularly 
convenient, sometimes, for the military in times of growth and 
BRAC changes and Army Modular Force (AMF) changes, but it is 
with us. I think overall it is a good process and I don't think 
it really affected the Walter Reed experience.
    Mr. Ortiz. One of the reasons I ask you is, I have had a 
chance--I normally go to visit Walter Reed and Bethesda, but 
this last time I went down there, I talked to some of the 
people who worked there, they said they saw a vast number of 
knowledge and experience just walk out the door because of this 
contract that came on, the new contract.
    And one of the things--and that is maintenance. But I think 
that we need to look at the health services that we provide to 
our soldiers. It takes special people, and I have seen them 
three or four at a time working on individuals who had just 
been amputated, who have been wounded, and sometimes it takes 
special people, and I don't know whether you are up to par or 
how your staff is, whether you have complete staff, doctors and 
nurses.
    We are here because we want to help you. If you need more 
nurses, if you need more doctors--but A76, as far as I know, by 
visiting the area, they said that a vast number of experience, 
some of the people that were hired couldn't even find the 
stairwells because they were new.
    So any time--and I have told people before in committee 
before, that for the past several years the civilian workforce 
has had a cloud over them. First, you know, it was base closure 
commission. They didn't know whether their base was going to be 
shut down and whether they were going to be out of a job. And 
then comes A76 after that. And all this contracting out.
    We want to be sure that we have people who work there that 
are committed, that we recompense them, that we repay them, 
that we honor their commitment to the hospital that they work. 
In many cases, you know, when they hire people, they don't have 
the benefit that the civilian workforce has. They don't have 
the retirement, they don't have the pay, they don't have the 
holidays, and this is a matter of concern.
    But I appreciate your answer. I know we are going to have a 
meeting in a few minutes, another markup, but let me go to my 
good friend, Shea-Porter.
    Ms. Shea-Porter. Thank you, Mr. Chairman.
    I would like to talk about the Portsmouth Naval Shipyard 
for a moment, since I have so many constituents who are 
employees.
    As you know, the Portsmouth Naval Shipyard has been 
excellent, has excelled in the many, many years that it has 
been there. And somehow or another, the Portsmouth Naval 
Shipyard was on the BRAC list for closing and was rescued 
because of their great work.
    But the DOD did not choose to execute the fiscal year 2007 
congressional additions in the fiscal year 2007 authorization 
bill, and I am very concerned about what the mission is going 
to be for the Portsmouth Naval Shipyard.
    They are going to be receiving these Virginia class subs 
and yet the money is not keeping for their dry docks and I 
wanted to know why the money is not following what the work 
assignment is going to be. They have to have it in order to do 
the work on the Virginia subs.
    Secretary Grone. Ma'am, I will try to answer the question 
in part, and Mr. Penn can speak to the operational issue.
    As we discussed earlier, before I believe you came in the 
room, the question of how the spending plan was developed was 
raised by the chairman and other members. The fact of the 
matter is that the continuing resolution did not provide 
sufficient funds to finance all the military construction 
projects that were authorized in the Defense Authorization 
Bill. And so projects--choices had to be made.
    In consultation with the Appropriations Committee, we 
understand the account amounts were derived. It appeared to us 
for reasons of execution, prioritization and consistency with 
what we believe was to some degree intent, we followed the path 
of the President's budget minus projects that were not included 
in the authorization bill, and that is largely how those funds 
were derived, with some marginal changes. In fact, the only 
account that was short of the funding that was provided in that 
way was the defense-wide military construction account.
    So the projects that we included in the spending plan, the 
President's budget 2007 projects were of a higher priority by 
virtue of the fact that they were included in the budget and 
made it through that process to be included.
    We certainly recognize that there are projects throughout 
the authorization bill and throughout the varying 
appropriations bills because they had not reached a conference 
conclusion that were meritorious or projects that were 
otherwise in the Future Years Defense Program.
    But the raw fact of it is that we simply didn't have the 
funds available to us through the continuing resolution to 
finance all of the projects that the Congress judged through 
the authorization process were worthy of being funded in this 
fiscal year.
    Ms. Shea-Porter. Let me follow up on that, since you talked 
about execution and prioritization.
    It seems to me that would be a pretty touch priority if you 
know that the Portsmouth Naval Shipyard is going to be doing 
operations and maintenance on the Virginia subs, that you would 
want to have the Portsmouth Naval Shipyard able to do the work.
    So wouldn't that give it a high priority?
    Secretary Grone. Again, we have military construction 
projects that support operational requirements of all of the 
services throughout the entirety of the program. And, again, 
the fact is that we were not provided sufficient funds to 
follow the direction of the authorization bill by the 
appropriations outcome. And that is the best that I can answer 
that.
    Ms. Shea-Porter. I do have great concern about it, because 
I know that China is building nuclear subs. They are 
outbuilding us right now. It is pretty critically that, first 
of all, we build them to keep pace, and then, second, that we 
are able to maintain them.
    So what do you see the future of the Portsmouth Naval 
Shipyard and the Virginia attack subs to be? Is that something 
that you are going to put on top priority?
    Secretary Grone. That is an operational question that I 
would have to leave to the Navy. So I would yield to Mr. Penn, 
or we will have to have an operational perspective provided for 
you.
    Ms. Shea-Porter. Mr. Penn.
    Secretary Penn. And I would have to yield to the chief of 
Naval operations. Unfortunately, I don't control operations.
    Ms. Shea-Porter. Okay, but we are talking about----
    Secretary Penn. I don't think we have anything in the 2007 
or 2008. I think we have funding in the Future Years Defense 
Plan (FYDP) for Portsmouth, and I will be glad to get back to 
you with that.
    Ms. Shea-Porter. I would appreciate that, because obviously 
this is a matter of national security, that if we are having 
these Virginia subs, we need to have a shipyard able to do the 
operations and maintenance work on them, and they have to be 
ready in order to do that.
    Thank you.
    Mr. Ortiz. Thank you so much for your testimony.
    And like I say, we are in the same boat. We are working 
together. We need to solve some of these problems that we have.
    Being no further questions, this hearing stands adjourned.
    [Whereupon, at 3:26 p.m., the subcommittee was adjourned.]


=======================================================================



                            A P P E N D I X

                             March 20, 2007

=======================================================================



=======================================================================


              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                             March 20, 2007

=======================================================================

      
      
    [GRAPHIC] [TIFF OMITTED] T0999.001
    
    [GRAPHIC] [TIFF OMITTED] T0999.002
    
    [GRAPHIC] [TIFF OMITTED] T0999.003
    
    [GRAPHIC] [TIFF OMITTED] T0999.004
    
    [GRAPHIC] [TIFF OMITTED] T0999.005
    
    [GRAPHIC] [TIFF OMITTED] T0999.006
    
    [GRAPHIC] [TIFF OMITTED] T0999.007
    
    [GRAPHIC] [TIFF OMITTED] T0999.008
    
    [GRAPHIC] [TIFF OMITTED] T0999.009
    
    [GRAPHIC] [TIFF OMITTED] T0999.010
    
    [GRAPHIC] [TIFF OMITTED] T0999.011
    
    [GRAPHIC] [TIFF OMITTED] T0999.012
    
    [GRAPHIC] [TIFF OMITTED] T0999.013
    
    [GRAPHIC] [TIFF OMITTED] T0999.014
    
    [GRAPHIC] [TIFF OMITTED] T0999.015
    
    [GRAPHIC] [TIFF OMITTED] T0999.016
    
    [GRAPHIC] [TIFF OMITTED] T0999.017
    
    [GRAPHIC] [TIFF OMITTED] T0999.018
    
    [GRAPHIC] [TIFF OMITTED] T0999.019
    
    [GRAPHIC] [TIFF OMITTED] T0999.020
    
    [GRAPHIC] [TIFF OMITTED] T0999.021
    
    [GRAPHIC] [TIFF OMITTED] T0999.022
    
    [GRAPHIC] [TIFF OMITTED] T0999.023
    
    [GRAPHIC] [TIFF OMITTED] T0999.024
    
    [GRAPHIC] [TIFF OMITTED] T0999.025
    
    [GRAPHIC] [TIFF OMITTED] T0999.026
    
    [GRAPHIC] [TIFF OMITTED] T0999.027
    
    [GRAPHIC] [TIFF OMITTED] T0999.028
    
    [GRAPHIC] [TIFF OMITTED] T0999.029
    
    [GRAPHIC] [TIFF OMITTED] T0999.030
    
    [GRAPHIC] [TIFF OMITTED] T0999.031
    
    [GRAPHIC] [TIFF OMITTED] T0999.032
    
    [GRAPHIC] [TIFF OMITTED] T0999.033
    
    [GRAPHIC] [TIFF OMITTED] T0999.034
    
    [GRAPHIC] [TIFF OMITTED] T0999.035
    
    [GRAPHIC] [TIFF OMITTED] T0999.036
    
    [GRAPHIC] [TIFF OMITTED] T0999.037
    
    [GRAPHIC] [TIFF OMITTED] T0999.038
    
    [GRAPHIC] [TIFF OMITTED] T0999.039
    
    [GRAPHIC] [TIFF OMITTED] T0999.040
    
    [GRAPHIC] [TIFF OMITTED] T0999.041
    
    [GRAPHIC] [TIFF OMITTED] T0999.042
    
    [GRAPHIC] [TIFF OMITTED] T0999.043
    
    [GRAPHIC] [TIFF OMITTED] T0999.044
    
    [GRAPHIC] [TIFF OMITTED] T0999.045
    
    [GRAPHIC] [TIFF OMITTED] T0999.046
    
    [GRAPHIC] [TIFF OMITTED] T0999.047
    
    [GRAPHIC] [TIFF OMITTED] T0999.048
    
    [GRAPHIC] [TIFF OMITTED] T0999.049
    
    [GRAPHIC] [TIFF OMITTED] T0999.050
    
    [GRAPHIC] [TIFF OMITTED] T0999.051
    
    [GRAPHIC] [TIFF OMITTED] T0999.052
    
    [GRAPHIC] [TIFF OMITTED] T0999.053
    
    [GRAPHIC] [TIFF OMITTED] T0999.054
    
    [GRAPHIC] [TIFF OMITTED] T0999.055
    
    [GRAPHIC] [TIFF OMITTED] T0999.056
    
    [GRAPHIC] [TIFF OMITTED] T0999.057
    
    [GRAPHIC] [TIFF OMITTED] T0999.058
    
    [GRAPHIC] [TIFF OMITTED] T0999.059
    
    [GRAPHIC] [TIFF OMITTED] T0999.060
    
    [GRAPHIC] [TIFF OMITTED] T0999.061
    
    [GRAPHIC] [TIFF OMITTED] T0999.062
    
    [GRAPHIC] [TIFF OMITTED] T0999.063
    
    [GRAPHIC] [TIFF OMITTED] T0999.064
    
    [GRAPHIC] [TIFF OMITTED] T0999.065
    
    [GRAPHIC] [TIFF OMITTED] T0999.066
    
    [GRAPHIC] [TIFF OMITTED] T0999.067
    
    [GRAPHIC] [TIFF OMITTED] T0999.068
    
    [GRAPHIC] [TIFF OMITTED] T0999.069
    
    [GRAPHIC] [TIFF OMITTED] T0999.070
    
    [GRAPHIC] [TIFF OMITTED] T0999.071
    
    [GRAPHIC] [TIFF OMITTED] T0999.072
    
    [GRAPHIC] [TIFF OMITTED] T0999.073
    
    [GRAPHIC] [TIFF OMITTED] T0999.074
    
    [GRAPHIC] [TIFF OMITTED] T0999.075
    
    [GRAPHIC] [TIFF OMITTED] T0999.076
    
    [GRAPHIC] [TIFF OMITTED] T0999.077
    
    [GRAPHIC] [TIFF OMITTED] T0999.078
    
    [GRAPHIC] [TIFF OMITTED] T0999.079
    
    [GRAPHIC] [TIFF OMITTED] T0999.080
    
    [GRAPHIC] [TIFF OMITTED] T0999.081
    
    [GRAPHIC] [TIFF OMITTED] T0999.082
    
    [GRAPHIC] [TIFF OMITTED] T0999.083
    
    [GRAPHIC] [TIFF OMITTED] T0999.084
    
    [GRAPHIC] [TIFF OMITTED] T0999.085
    
    [GRAPHIC] [TIFF OMITTED] T0999.086
    
    [GRAPHIC] [TIFF OMITTED] T0999.087
    
    [GRAPHIC] [TIFF OMITTED] T0999.088
    
    [GRAPHIC] [TIFF OMITTED] T0999.089
    
    [GRAPHIC] [TIFF OMITTED] T0999.090
    
    [GRAPHIC] [TIFF OMITTED] T0999.091
    
    [GRAPHIC] [TIFF OMITTED] T0999.092
    
    [GRAPHIC] [TIFF OMITTED] T0999.093
    
    [GRAPHIC] [TIFF OMITTED] T0999.094
    
    [GRAPHIC] [TIFF OMITTED] T0999.095
    
    [GRAPHIC] [TIFF OMITTED] T0999.096
    
    [GRAPHIC] [TIFF OMITTED] T0999.097
    
    [GRAPHIC] [TIFF OMITTED] T0999.098
    
?

      
=======================================================================


                   DOCUMENTS SUBMITTED FOR THE RECORD

                             March 20, 2007

=======================================================================

      
      
    [GRAPHIC] [TIFF OMITTED] T0999.099
    
    [GRAPHIC] [TIFF OMITTED] T0999.100
    
    [GRAPHIC] [TIFF OMITTED] T0999.101
    
    [GRAPHIC] [TIFF OMITTED] T0999.102
    
    [GRAPHIC] [TIFF OMITTED] T0999.103
    
    [GRAPHIC] [TIFF OMITTED] T0999.104
    
    [GRAPHIC] [TIFF OMITTED] T0999.105
    
    [GRAPHIC] [TIFF OMITTED] T0999.106
    
    [GRAPHIC] [TIFF OMITTED] T0999.107
    
    [GRAPHIC] [TIFF OMITTED] T0999.108
    
    [GRAPHIC] [TIFF OMITTED] T0999.109
    
    [GRAPHIC] [TIFF OMITTED] T0999.110
    
    [GRAPHIC] [TIFF OMITTED] T0999.111
    
    [GRAPHIC] [TIFF OMITTED] T0999.112
    
    [GRAPHIC] [TIFF OMITTED] T0999.113
    
    [GRAPHIC] [TIFF OMITTED] T0999.114
    
    [GRAPHIC] [TIFF OMITTED] T0999.115
    
    [GRAPHIC] [TIFF OMITTED] T0999.116
    
    [GRAPHIC] [TIFF OMITTED] T0999.117
    
    [GRAPHIC] [TIFF OMITTED] T0999.118
    
    [GRAPHIC] [TIFF OMITTED] T0999.119
    
    [GRAPHIC] [TIFF OMITTED] T0999.120
    
    [GRAPHIC] [TIFF OMITTED] T0999.121
    
    [GRAPHIC] [TIFF OMITTED] T0999.122
    
    [GRAPHIC] [TIFF OMITTED] T0999.123
    
    [GRAPHIC] [TIFF OMITTED] T0999.124
    
    [GRAPHIC] [TIFF OMITTED] T0999.125
    
    [GRAPHIC] [TIFF OMITTED] T0999.126
    
    [GRAPHIC] [TIFF OMITTED] T0999.127
    
    [GRAPHIC] [TIFF OMITTED] T0999.128
    
    [GRAPHIC] [TIFF OMITTED] T0999.129
    
    [GRAPHIC] [TIFF OMITTED] T0999.130
    
    [GRAPHIC] [TIFF OMITTED] T0999.131
    
    [GRAPHIC] [TIFF OMITTED] T0999.132
    
    [GRAPHIC] [TIFF OMITTED] T0999.133
    
?

      
=======================================================================


             QUESTIONS AND ANSWERS SUBMITTED FOR THE RECORD

                             March 20, 2007

=======================================================================

      
                   QUESTIONS SUBMITTED BY MR. SAXTON

    Mr. Saxton. Mr. Eastin, during the last Base Realignment and 
Closure Commission, some of us were unconvinced that the closing of 
Fort Monmouth was the right decision. And the chairman of the Base 
Realignment and Closure Commission actually was told by the secretary 
of the Army that under no circumstances would the Army permit the move 
to sacrifice or short-change ongoing C4ISR support for the service and 
warfighters in the field, particularly during this war.
    The chairman then added language requiring the secretary of defense 
to submit to Congress a report that a movement of organization 
functions and activities from Fort Monmouth to Aberdeen proving ground 
would be accomplished without disruption of their support for the 
global war on terror.
    The language required a report. I would like to know where the 
report is. Would it be possible for you to check on the report and get 
back to us?
    Secretary Eastin. The report to Congress required by the 2005 BRAC 
Commission has begun, and will be submitted before the end of the year. 
The current target date is December 15, 2007. The report will be 
submitted well before we begin any large-scale movement of personnel 
from Fort Monmouth to Aberdeen Proving Ground.

                                  <all>

</pre></body></html>
